No.

IN THE
SUPREME COURT OF THE UNITED STATES
WASHINGTON. D.C.
OBIDIAH McCASKILL. JR - PETITIONER
vs.
MARK S. INCH. SECRETARY
FLORIDA DEPT. OR CORRECTIONS - RESPONDENT(S)
PROOF OF SERVICE
L Obidiah McCaskill, Jr________________ , do swear or declare that on this date,
Kp&LUs_________ ’ 2021, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party to the
above proceeding or that party’s counsel, and on every other person required to be
served, by depositing an envelope containing the above documents in the United
States mail properly addressed to each of them and with first-class postage prepaid,
or by delivery to a third -party commercial carrier for delivery within 3 calendar
days.

r-

The names and addresses of those served are as follows:
Attorney General’s Office The Capitol. PL-01 Tallahassee. FL 32399
General Counsel 501 S. Calhoun Street Tallahassee. FL 32399

I declare under penalty of perjury that the foregoing is true and correct.
Executed oil

1.
&

(Signature)

‘f

/V

Additional material
from this filing is
available in the
Clerk's Office.

